No. 20-1400
Jln tlJe
~upreme

QCourt of tbe Wniteb ~tateS'

MARK ELLIOTT, ET AL.,

Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
P UERTO RICO, ET AL

Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify
that the reply brief in support of certiorari contains
2,982 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on June 21, 2021

